               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03418-44


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

    Lexington VA Medical Center 

        Lexington, Kentucky 





January 16, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                          Glossary
                     AUD            alcohol use disorder
                     CBOC           community based outpatient clinic
                     DWHP           designated women’s health provider
                     EHR            electronic health record
                     EOC            environment of care
                     FY             fiscal year
                     MH             mental health
                     MM             medication management
                     NM             not met
                     OIG            Office of Inspector General
                     PACT           Patient Aligned Care Teams
                     PCC            primary care clinic
                     PII            personally identifiable information
                     RN             registered nurse
                     VHA            Veterans Health Administration
                     VISN           Veterans Integrated Service Network
                     WH             women’s health




VA OIG Office of Healthcare Inspections
                                        CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                            Table of Contents
                                                                                                                             Page
Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology........................................................................                         1

  Objectives ...............................................................................................................       1

  Scope ......................................................................................................................     1

  Methodology ............................................................................................................         1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of December 2, 2013, at the Berea,
KY, CBOC which is under the oversight of the Lexington VA Medical Center and
Veterans Integrated Service Network 9.

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that patient’s personally identifiable information is
protected by securing laboratory specimens during transport from the Berea CBOC to
the parent facility.

Alcohol Use Disorder. Ensure that CBOC/PCC Nurse Care Managers complete
motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C-D,
pages 14–17, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        i
                                    CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                   CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
                               All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
           AUD
                               AUDIT-C scoreb and all providers and RN care managers
                               assigned to PACT prior to October 1, 2012.
                               All outpatients with an original prescription ordered for one of
            MM                 the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
                               All WH Primary Care Providers designated as DWHPs as of
    DWHP Proficiencies         October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Berea CBOC. The
table below shows the areas reviewed for this topic. The area marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                    Areas Reviewed                                          Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the


VA OIG Office of Healthcare Inspections                                                                   3
                                          CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


       onsite visit.
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens           PII was not protected on laboratory specimens
 X     during transport so that patient privacy is        during transport.
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The IT network room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       VA and Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Berea CBOC to the parent facility.




VA OIG Office of Healthcare Inspections                                                                   4
                                          CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have                     We found that 8 (24 percent) of 34 RN Care
 X     received MI training within 12 months of           Managers did not complete MI training within 12
       appointment to PACT.                               months of appointment to PACT.
       CBOC/PCC RN Care Managers have                     We found that 11 (32 percent) of 34 RN Care
       received National Center for Health Promotion      Managers did not complete required health
 X     and Disease Prevention approved health             coaching training within 12 months of
       coaching training within 12 months of              appointment to PACT.
       appointment to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/PCC RN Care Managers complete motivational interviewing
training within 12 months of appointment to PACT.

3. We recommended that CBOC/PCC RN Care Managers complete required health coaching
training within 12 months of appointment to PACT.


VA OIG Office of Healthcare Inspections                                                                     5
                                          CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                   6
                                          CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Model data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                          Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                                   7
                                                                             CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                                                                   Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                          d
                                                                                 Uniques                                      Encountersd

                             Station                 CBOC
                                        Localitye                     g
       Location     State                                          MH         PCh        Otheri       All        MHg        PCh        Otheri       All
                                #                     Sizef
    Somerset         KY       596GA       Rural       Large        940       4,611       1,972      5,145       3,907      13,432      3,784      21,123
    Berea            KY       596GD       Rural     Mid-Size       263       3,765       1,530      4,031        866       7,938       3,237      12,041
    Morehead         KY       596GB       Rural     Mid-Size       179       2,137       1,094      2,255        563       5,284       2,375      8,222
    Hazard/Perry
                     KY       596GC       Rural     Mid-Size       248       1,937         865      2,077       1,029      4,248       1,784      7,061
    County
 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  MH includes stop codes in the 500 series, excluding 531 and 563, in the primary position.

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    8
                                             CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                       CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services provided
at each CBOC.j

                                                                                                       Tele-Health
            CBOC               Specialty Care Servicesk             Ancillary Servicesl
                                                                                                        Servicesm
    Somerset                               ---                        Rehabilitation                Tele Primary Care
                                                                         Nutrition
                                                                Diabetic Retinal Screening
    Berea                                  ---                           Nutrition                  Tele Primary Care

    Morehead                               ---                            Nutrition                 Tele Primary Care

    Hazard/Perry County                    ---                            Nutrition                 Tele Primary Care




j
  The denoted Specialty Care and Ancillary Services are limited to Primary Clinic Stops with a count ≥ 100 encounters during

the July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/)
 


VA OIG Office of Healthcare Inspections                                                                                    9
                                                                                         CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                                                                               Appendix B


                                                                     PACT Compass Metrics 

                                                    FY 2013 Average 3rd Next Available in PC Clinics
                                35.0
    Average Number of Days




                                30.0
                                25.0
                                20.0
                                15.0
                                10.0
                                  5.0
                                  0.0
                                                       Lexington‐Leestown
                                        VHA Total                           Somerset (596GA)     Morehead (596GB)    Hazard (596GC)      Berea (596GD)
                                                              (596)
                             OCT FY13     14.6                10.3                8.3                  10.4               11.2               25.6
                             NOV FY13     15.2                11.0                7.5                  8.1                13.6               12.0
                             DEC FY13     13.8                8.6                 6.0                  12.2               12.9               20.8
                             JAN FY13     14.0                9.6                 6.0                  3.5                7.0                19.6
                             FEB FY13     14.8                13.1                14.2                 5.1                9.6                12.8
                             MAR FY13     13.3                9.2                 31.9                 1.7                5.6                13.8
                             APR FY13     14.4                13.6                9.4                  1.9                8.4                 9.6
                             MAY FY13     16.0                12.1                17.0                 4.3                14.0               16.3
                             JUN FY13     14.2                13.9                17.5                 2.9                8.9                15.3
                             JUL FY13     14.6                14.3                17.6                 5.1                20.4               18.8
                             AUG FY13     15.7                17.6                19.0                 7.9                13.0               19.1
                             SEP FY13     13.4                13.3                16.0                 2.5                12.3               11.4


Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                  10
                                                                                                       CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                                              FY 2013 Established PC Prospective Wait Times 7 Days

                                              100%

          Percentage of Patients Scheduled

            Within 7 Days of Desired Date

                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                     OCT FY13   NOV FY13   DEC FY13   JAN FY13   FEB FY13   MAR FY13   APR FY13   MAY FY13   JUN FY13   JUL FY13   AUG FY13   SEP FY13
     VHA Total                                        83.5%      81.1%      82.4%      82.6%      83.2%      83.6%      84.0%      84.0%      84.1%      84.3%      84.5%      84.7%
     Lexington‐Leestown (596)                         78.4%      73.8%      81.7%      79.1%      84.7%      83.8%      78.3%      78.4%      78.4%      80.9%      81.8%      83.8%
     Somerset (596GA)                                 78.0%      75.2%      67.6%      64.6%      73.7%      72.5%      72.4%      70.0%      70.2%      74.4%      72.5%      72.3%
     Morehead (596GB)                                 78.0%      75.2%      85.5%      86.8%      87.2%      98.9%      95.6%      87.6%      80.8%      83.9%      91.7%      94.8%
     Hazard (596GC)                                   64.7%      63.7%      88.4%      95.6%      90.5%      88.5%      86.5%      79.7%      75.0%      90.2%      87.6%      88.9%
     Berea (596GD)                                    94.6%      95.1%      98.0%      96.5%      88.2%      94.6%      98.8%      99.4%      97.1%      97.4%      96.2%      97.9%



Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.




VA OIG Office of Healthcare Inspections                                                                                                                                                11
                                                                                                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                                                   FY 2013 Ratio of ER Encounters While on Panel to

                                                                   PC Encounters  While on Panel (FEE ER Included)

                                                             36%
              Percentage of ER Encounters to PC Encounters
                                                             34%
                                                             32%
                                                             30%
                                                             28%
                                                             26%
                                                             24%
                                                             22%
                                                             20%
                                                             18%
                                                             16%
                                                             14%
                                                             12%
                                                             10%
                                                              8%
                                                              6%
                                                              4%
                                                              2%
                                                              0%
                                                                   OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13   AUG FY13   SEP FY13
        VHA Total                                                   16.3%    16.3%    16.4%      16.3%      16.3%    16.3%    16.1%    16.1%     16.0%     15.9%      15.8%      15.7%
        Lexington‐Leestown (596)                                    33.8%    33.9%    34.4%      34.5%      34.6%    34.8%    34.8%    34.7%     35.2%     34.9%      34.9%      34.8%
        Somerset (596GA)                                            15.0%    14.8%    14.8%      14.9%      14.9%    14.9%    15.6%    15.8%     16.0%     15.7%      15.8%      15.9%
        Morehead (596GB)                                            18.4%    18.3%    18.6%      18.6%      18.5%    18.3%    18.7%    18.4%     18.5%     18.6%      18.5%      18.6%
        Hazard (596GC)                                              10.7%     9.9%    10.0%      10.2%      10.5%    11.0%    11.1%    11.2%     11.4%     11.4%      11.6%      11.5%
        Berea (596GD)                                               26.1%    26.2%    25.9%      26.2%      26.4%    26.6%    26.5%    25.8%     26.0%     25.4%      25.3%      25.4%


Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                                                    12
                                                                             CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY



                                         FY 13 2‐Day Contact Post Disharge Ratio
        100%
         90%
         80%
         70%
         60%
         50%
         40%
         30%
         20%
         10%
          0%
                                        Lexington‐Leestown
                      VHA Total                                Somerset (596GA)      Morehead (596GB)        Hazard (596GC)         Berea (596GD)
                                               (596)
      OCT FY13          52.8%                 53.5%                  57.1%                 64.9%                  64.3%                 59.5%
      NOV FY13          52.9%                 62.5%                  58.1%                 70.0%                  50.0%                 69.0%
      DEC FY13          51.5%                 58.1%                  51.4%                 71.0%                  33.3%                 59.4%
      JAN FY13          57.2%                 66.9%                  53.5%                 77.3%                  60.0%                 62.5%
      FEB FY13          60.4%                 65.5%                  51.3%                 66.7%                  57.1%                 71.8%
      MAR FY13          64.4%                 67.8%                  63.0%                 60.0%                  80.0%                 76.5%
      APR FY13          65.5%                 66.7%                  66.7%                 86.7%                  66.7%                 76.7%
      MAY FY13          66.1%                 65.2%                  65.7%                 63.6%                  63.6%                 75.0%
      JUN FY13          70.1%                 70.8%                  78.3%                 85.0%                  72.7%                 81.0%
      JUL FY13          71.1%                 73.8%                  78.6%                 83.3%                  71.4%                 78.1%
      AUG FY13          72.7%                 77.5%                  85.0%                 76.9%                 100.0%                 84.2%
      SEP FY13          68.9%                 63.8%                  73.0%                 50.0%                  70.0%                 71.4%




 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
 care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
 excluded from this metric.

VA OIG Office of Healthcare Inspections                                                                                                                 13
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       January 6, 2014

          From:        Director, VA Mid-South Healthcare Network (10N9)

       Subject:        CBOC and PCC Reviews of the Lexington VA Medical
                       Center, Lexington, KY

             To:       Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations	 of this Office of
          Inspector General CBOC and PCC Reviews at the Lexington VA
          Medical Center, Lexington, Kentucky, as well as the action plan
          developed by the facility.

       2. If you have any questions or need additional information from the
          Network, please do not hesitate to contact Joe Schoeck, Staff Assistant
          to the Network Director, at 615-695-2205 or me at 615-695-2206.



       (original signed by:)



       John E. Patrick




VA OIG Office of Healthcare Inspections                                                       14
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       December 16, 2013

          From:        Director, Lexington VA Medical Center (596/00)

       Subject:        CBOC and PCC Reviews of the Lexington VA Medical
                       Center, Lexington, KY

             To:       Director, VA Mid-South Healthcare Network (10N9)

       1. On behalf of the Lexington VA Medical Center, I would like to thank you
          for the opportunity to review the OIG report. I concur with the findings
          and recommendations.

       2. Our responses to the report recommendations are attached. 	We have
          already been actively working on improvements. We appreciate the
          perspective from the OIG evaluation and will take this opportunity to
          strengthen and improve our medical center processes.


       (original signed by:)

       Emma Metcalf, (SES), MSN, RN
       Director




VA OIG Office of Healthcare Inspections                                                       15
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that PII is protected by
securing laboratory specimens during transport from the Berea CBOC to the parent
facility.

Concur

Target date for completion: January 13, 2014

Facility response: Prior to placing laboratory specimens in the cooler for transport from
the CBOC, specimens will be placed inside opaque, tear resistant and tamper-evident
polyethylene mailers and then sealed to provide PII protection. When the samples
arrive at the Cooper Drive laboratory, use of the opaque tamper-evident polyethylene
mailer and the mailer's integrity (no rips or no broken seals) will be inspected and
documented on the receipt log. The P&LMS Quality Manager will review the log weekly
for compliance and initiate corrective actions if necessary.


Recommendation 2. We recommended that CBOC/PCC RN Care Managers complete
motivational interviewing training within 12 months of appointment to PACT.

Concur

Target date for completion: May 30, 2014

Facility response: All CBOC/PCC RN Care Managers who have not completed
motivational interviewing training within 12 months of appointment to PACT will be
trained by May 30, 2014. The RN Care Manager Orientation checklist will be revised to
include the date within the first 12 months of appointment to PACT that the RN Care
Manager is scheduled for motivational interviewing. The Health Promotion Disease
Prevention Coordinator will report percentage of compliance with motivational training of
RN Care Managers within 12 months of appointment to PACT to the PACT Steering
Committee quarterly.

Recommendation 3. We recommended that CBOC/PCC RN Care Managers complete
required health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: May 30, 2014



VA OIG Office of Healthcare Inspections                                                       16
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY


Facility response: All CBOC/PCC RN Care Managers who have not completed
coaching training within 12 months of appointment to PACT will be trained by May 30,
2014. The RN Care Manager Orientation checklist will be revised to include the date
within the first 12 months of appointment that the RN Care Manager is scheduled for
coaching training. The Health Promotion Disease Prevention Coordinator will report
percentage of compliance with coaching training of RN Care Managers within 12
months of appointment to PACT to the PACT Steering Committee quarterly.




VA OIG Office of Healthcare Inspections                                                       17
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Charles Cook, MHA, Team Leader
Contributors            Darlene Conde-Nadeau, MSN, ARNP
                        Karen McGoff-Yost, MSW, LCSW
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Carol Torczon, MSN, ACNP
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       18
                               CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid-South Healthcare Network (10N9)
Director, Lexington VA Medical Center (596/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mitch McConnell, Paul Rand
U.S. House of Representatives: Andy Barr, Thomas Massie, Harold Rogers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       19
                                 CBOC and PCC Reviews at Lexington VA Medical Center, Lexington, KY
                                                                                       Appendix G

                                             Endnotes 


1
  References used for the EOC review included:
   US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
   US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
    Privacy Rule, August 14, 2002.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
    Violence, 2004.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
    March 2011.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
    Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
    Rounds, March 5, 2007.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
    September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
3
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
     for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
     Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 




VA OIG Office of Healthcare Inspections                                                                  20
